           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION




  PERFORMANCE INDICATOR AUDIT:
   ELECTRONIC SERVICE DELIVERY

     March 2007       A-15-06-16111




 AUDIT REPORT




                  .
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                        SOCIAL SECURITY

MEMORANDUM


Date:      March 8, 2007                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)


           We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 15 of the Social
           Security Administration’s performance indicators established to comply with the
           Government Performance and Results Act. Attached is the final report presenting the
           results of two of the performance indicators PwC reviewed. For the performance
           indicators included in this audit, PwC’s objectives were to:
              •   Assess the effectiveness of internal controls and test critical controls over data
                  generation, calculation, and reporting processes for the specific performance
                  indicator.
              •   Assess the overall reliability of the performance indicator’s computer processed
                  data. Data are reliable when they are complete, accurate, consistent and are not
                  subject to inappropriate alteration.
              •   Test the accuracy of results presented and disclosed in the Fiscal Year 2006
                  Performance and Accountability Report.
              •   Assess if the performance indicator provides a meaningful measurement of the
                  program it measures and the achievement of its stated objective.

           This report contains the results of the audit for the following indicators:
              •   Increase the usage of electronic entitlement and supporting actions.
              •   Increase the percent of employee reports (W-2 forms) filed electronically.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                             Patrick P. O’Carroll, Jr

           Attachment
MEMORANDUM

Date:      March 1, 2007

To:        Inspector General

From:      PricewaterhouseCoopers LLP

Subject:   Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)


OBJECTIVE
The Government Performance and Results Act (GPRA) 1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity. 2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance. 3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicators included in this audit,
our objectives were to:

           1. Assess the effectiveness of internal controls and test critical controls over the
              data generation, calculation, and reporting processes for the specific
              performance indicator.

           2. Assess the overall reliability of the performance indicator’s computer
              processed data. Data are reliable when they are complete, accurate,
              consistent and are not subject to inappropriate alteration. 4

           3. Test the accuracy of results presented and disclosed in the Fiscal Year (FY)
              2006 Performance and Accountability Report (PAR).

           4. Assess if the performance indicator provides a meaningful measurement of
              the program it measures and the achievement of its stated objective.


1
 Public Law Number 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
 Government Accountability Office (GAO), GAO-03-273G, Assessing Reliability of Computer Processed
Data, October 2002, p. 3.


Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)                             1
BACKGROUND
We audited the following performance indicators as stated in the SSA FY 2006 PAR:

               Performance Indicator                 FY 2006 Goal        FY 2006
                                                                        Reported
                                                                         Results
    Increase the usage of electronic                 300% growth     291.8% growth
    entitlement and supporting actions               over FY 2004     over FY 2004
                                                        baseline         baseline
                                                      (2,211,200)      (2,165,865)
    Increase the percent of employee
                                                            70%            75%
    reports (W-2 forms) filed electronically

SSA has identified four Service challenges in FY 2006. These include:

•         Management of the Disability Process;
•         Improve Programs that Provide Support for People with Disabilities;
•         Better Position SSA for Future Service Delivery Challenges, Including Information
          Technology; and
•         Electronic Government. 5

During FY 2006, SSA focused on addressing Service challenges through the use of
technology. 6 To meet these challenges, SSA provided Internet systems to the public
and employers. These systems allowed the public to apply for Old-Age, Survivors, and
Disability Insurance (OASDI) online, make changes to their address and direct deposit
information, and request replacement cards for Medicare. Also, employers were able to
submit employee wages via the Internet systems. With the onset of these Internet
systems, SSA has:

•         Provided the public with easy and efficient access to SSA services;
•         Improved Agency productivity and service through increased processing efficiencies;
          and
•         Conserved OASDI Trust Funds and general revenue monies by having the public
          complete the significant data entry procedures for the OASDI and wage reporting
          processes. 7




5
    FY 2006 SSA Performance Accountability Report, p. 25.
6
    FY 2006 SSA Performance Accountability Report, p. 33.
7
    Id.


Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)                      2
RESULTS OF REVIEW
Our assessment of the two indicators included in this report did not identify any
significant exceptions related to the internal controls and data reliability, accuracy of
presentation or disclosure of the information related to these indicators contained in the
FY 2006 PAR, or to the meaningfulness of these indicators.

Increase the usage of electronic entitlement and supporting actions

Indicator Background

This performance indicator measures the increase of the public's use of SSA's Internet
services specific to applying for OASDI benefits, updating address and direct deposit
information with SSA, and requesting replacement Medicare cards. There are seven
systems (including three Internet Social Security Benefit Application (ISBA) Information
Technology (IT) applications as noted below), that provide these Internet services to the
public. They include the following:

       •   Proof of Income - Internet and 800# voice enabled (BEVE);
       •   Password based and Knowledge based Change of Address (iCOA);
       •   Internet Change of Direct Deposit (iCDD);
       •   Internet Medicare Replacement Card - Internet (iMRC) and 800# voice
           enabled; and
       •   ISBA IT applications (retirement, disability, and spouse).

All applications for OASDI benefits entered into ISBA are electronically transferred to
Field Offices (FO) for processing. Once received by the FOs, Claims Representatives
review and authorize the ISBA transactions for processing through the Modernized
Claims System (MCS). After being processed through MCS, key data elements related
to the completed internet transaction applications are recorded in the Title II Operational
Datastore (TII ODS). This key data is transferred to the Executive and Management
Information System (EMIS) on a weekly basis for review and analysis by SSA
management.

The supporting actions, including updating address and direct deposit information with
SSA and requesting replacement Medicare cards, are entered into BEVE, iCOA, iCDD,
and iMRC and are processed on a nightly basis. Successfully completed transactions
are recorded in the Electronic Service Delivery/ Internet Management Delivery
Architecture Project (EMAP) database. On a weekly basis, EMAP creates the Internet
Management Information report to summarize the transactions successfully processed
by these applications. This data is sent to the EMIS on a weekly basis for review and
analysis by SSA management.




Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)                     3
EMIS generates weekly reports of the aggregate count of the successful transactions
processed by the seven applications for the FY. This data is stored in an Access
database. The performance indicator is calculated in the following manner:


Performance Indicator Calculation



                                                    *FY 06 Total Application Counts
                                                   (minus) - FY 04 Total Application
 Increase the usage of electronic                               Counts
entitlement and supporting actions         =       __________________________
   over the 2004 baseline year
                                                    FY 04 Total Application Counts

                                                 * This result is multiplied by 100 to obtain a
                                                   percent.


Findings

We did not identify any significant findings related to the internal controls, data reliability,
accuracy of presentation, meaningfulness, or disclosure of the information related to this
indicator contained in the FY 2006 PAR.

Increase the percent of employee reports (W-2 forms) filed electronically

Indicator Background

This performance indicator measures the percentage of employee reports (W-2 forms)
filed electronically through:

       •   Electronic Data Transfer (EDT);
       •   Internet W2 Pre-Processing System (IW2PS); and
       •   The W-2 Online application.

Employers can submit W-2s to SSA electronically via the IW2PS, W-2 Online
application, or EDT. The W-2 data, submitted by employers, is converted to a common
text format by the Annual Wage Reporting system (AWR), and validated against SSA
records to ensure the name and Social Security Number (SSN) of the individuals are
correct. If the names and SSNs match SSA records, the wage data is posted to the
each individual's master earnings record in the Master Earnings File (MEF). If the name
and SSN do not match SSA records, the wage data is posted to the Earnings Suspense
File (ESF).




Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)                          4
Data from the MEF and ESF is sent to the Earnings Management Information
Operational Datastore (EMODS) on a daily basis. On a monthly basis, SSA
management personnel produces the EMODS Report 1007 which includes the number
of W-2 forms received electrically via EDT, IW2PS, and W-2 Online. These numbers
are transferred into an Excel spreadsheet and totaled to obtain the "Number of W-2s
filed electronically and processed to completion for a tax year" (this number is used as
numerator of the indicator results).

The Office of the Actuary (OACT) estimates the total number of W-2s expected to be
received and posted for the current year (this number is used as denominator of the
indicator results). This estimate is recorded in the Excel spreadsheet. Refer to
Appendix D for a detailed discussion of the actuarial estimate. The performance
indicator is calculated in the following manner:

Performance Indicator Calculation



                                                 Sum of the 8 1/2 months (January
Number of W-2s filed electronically              15, 2006 through September 30,
and processed to completion for a          =     2006) of the W-2s filed
            tax year                             electronically and processed to
                                                 completion.



                                                 Actuarial estimate for the total
 Total number of W-2s for that tax
                                                 number of W-2s for the tax year
 year processed to completion by           =
                                                 2005 processed to completion by
  the end of the processing year
                                                 the end of January 2007
          (mid-January)



                                                 *Number of W-2s filed electronically
                                                  and processed to completion for a
                                                              tax year
                                           =     ____________________________
    The percentage of employee
      reports (W-2 forms) filed                  Total number of W-2s for that tax
            electronically                       year processed to completion by
                                                 the end of the processing year
                                                 (December 31)

                                                 * This result is multiplied by 100 to obtain a
                                                 percent.




Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)                          5
Findings

We did not identify any significant findings related to the internal controls, data reliability,
accuracy of presentation, meaningfulness, or disclosure of the information related to this
indicator contained in the PAR.

RECOMMENDATIONS
There are no recommendations.

AGENCY COMMENTS
SSA agreed with our report. See Appendix E for the text of the Agency’s comments.




Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)                      6
                                            Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Statistical Methodology

APPENDIX E – Agency Comments




Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)
                                                                           Appendix A
Acronyms
 AWR        Annual Wage Reporting system
 BEVE       Proof of Income
 BSO        Business Services Online
 CES        Current Employment Survey
 CPS        Current Population Survey
 EDT        Electronic Data Transfer
 EMAP       Electronic Service Delivery/ Internet Management Delivery Architecture Project
 EMIS       Electronic Management Information System
 EMODS      Earnings Management Information Operational Datastore
 ERMS       Earnings Records Maintenance System
 ESF        Earnings Suspense File
 FO         Field Office
 FY         Fiscal Year
 GAO        Government Accountability Office
 GPRA       Government Performance and Results Act
 iCOA       Internet Change of Address
 iCDD       Internet Change of Direct Deposit
 iMRC       Internet Medicare Replacement Card
 ISBA       Internet Social Security Benefit Application
 IT         Information Technology
 IW2PS      Internet W2 Pre-Processing System
 MCS        Modernized Claims System
 MEF        Master Earnings File
 MI         Management Information
 OASDI      Old-Age, Survivors, and Disability Insurance
 OACT       Office of the Actuary
 OSM        Office of Strategic Management
 PAR        Performance and Accountability Report
 SSA        Social Security Administration
 SSN        Social Security Number
 TII ODS    Title II Operational Datastore
 T2WMI      Title II Work Management Information System
 U.S.C.     United States Code




Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)
                                                                           Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA to provide
various documents regarding the specific programs being measured as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following:

   •   Reviewed prior SSA, Office of the Inspector General and other reports related to
       SSA’s GPRA performance and related information systems.
   •   Reviewed applicable laws, regulations and SSA policy.
   •   Met with the appropriate SSA personnel to confirm our understanding of the
       performance indicator.
   •   Flowcharted the process. (See Appendix C).
   •   Tested key controls related to manual or basic computerized processes (e.g.,
       spreadsheets, databases, etc.).
   •   Conducted and evaluated tests of the automated and manual controls within and
       surrounding each of the critical applications to determine whether the tested
       controls were adequate to provide and maintain reliable data to be used when
       measuring the specific indicator.
   •   Identified attributes, rules, and assumptions for each defined data element or
       source document.
   •   Recalculated the metrics or algorithm of key performance indicators to ensure
       mathematical accuracy.
   •   For those indicators with results that SSA determined using computerized data,
       we assessed the completeness and accuracy of that data to determine the data's
       reliability as it pertains to the objectives of the audit.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine if the performance indicators appear to be valid and appropriate given our
understanding of SSA’s mission, goals, objectives and processes.

We followed all performance audit standards in accordance with generally accepted
government auditing standards. In addition to the steps above, we specifically
performed the following to test the indicators included in this report:


Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)              B-1
INCREASE THE USAGE OF ELECTRONIC ENTITLEMENTS AND
SUPPORTING ACTIONS
   •   Audited the design and effectiveness of the SSA internal controls and the
       accuracy and completeness of the data related to the following areas:
           Completed application control reviews over the Internet Social Security
             Benefit Application (ISBA), Proof of Income - Internet and 800# voice
             enabled (BEVE), Password based and Knowledge based Change of
             Address (iCOA), Internet Change of Direct Deposit (iCDD), and Internet
             Medicare Replacement Card - Internet (iMRC), and Medicare
             Replacement Card - 800#, Title II Operational Datastore, and Electronic
             Service Delivery/ Internet Management Delivery Architecture Project
             (EMAP) database.
   •   Recalculated the indicator for Fiscal Year (FY) 2006 and compared it to the
       number reported in the Performance Accountability Report.

INCREASE THE PERCENT OF EMPLOYEE REPORTS (W-2 FORMS)
FILED ELECTRONCIALLY

   •   Audited the design and effectiveness of the SSA internal controls and the
       accuracy and completeness of the data related to the following areas:
            Completed application control reviews over the Earnings Records
              Maintenance System (ERMS) and the Earnings Modernized Datastore
              (EMODS.)
   •   Determined the reasonableness of the estimate used in the indicator.
   •   Determined the adequacy of the programming logic used by SSA to calculate the
       increase the percent of employee reports (W-2 forms filed electronically).
   •   Recalculated the indicator for FY 2006 and compared it to the number reported in
       the Performance and Accountability Report.




Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)            B-2
                                                                                                                                                                Appendix C
      Flowchart of Increase the Usage of Electronic Entitlements and
      Supporting Actions
                                      Field Offices (FO)
                                     receive Title II Work
   Claimant completes                                                                                                                                       Title II Operational
                                          Management                              Claim data
        initial online                                                                                   A field on the claim                                  Datastore (TII
                                    Information (T2 WMI)                         automatically
    application via the                                                                                   record indicates             MCS                  ODS) records the
                                        case listing that                    propagated into MCS
      Internet Social                                                                                    that the claim was        processes the                   data for
                                      identifies Internet                     when triggered by a
     Security Benefit                                                                                     received via the             claim.                   successfully
                                     cases needed to be                     (FO) action by a Claim
   Application (ISBA)*                                                                                         Internet.                                    completed claims
                                       triggered into the                       Representative.
   on the SSA website.                                                                                                                                       via the Internet.
                                     Modernized Claims
                                        System (MCS).




 Claimant completes post-              Nightly run reads
  entitlement transactions           transaction data and
     via Proof of Income              stores summarized
                                                                            Weekly run updates the                                                         On a weekly basis, the
(BEVE), Internet Change of                 data in the
                                                                             Internet Management                                                        Executive and Management
 Address (iCOA), Internet              Electronic Service
                                                                          Information (MI) reports for                                                  Information System (EMIS)
 Change of Direct Deposit               Delivery/Internet
                                                                            iCOA, iCDD, iMRC, and                                                       Internet site is updated with
    (iCDD), and Internet                 Management
                                                                                     BEVE.                                                               Internet workload counts.
   Medicare Replacement                   Information
 Card (iMRC) on the SSA               Architecture Project
           website.                   (EMAP) Database.




                                                                                                          The performance
                                                                                                               indicator
                                                                                                                                 Data is sent to the
                                                                                                            percentage is
                                                                                                                                 Office of Strategic
                                                                                                            calculated and
                                                                                Weekly reports                                  Management (OSM)
                                                                                                               manually
                                                                                are generated                                    for reporting in the
                                                                                                         transcribed into an
                                                                                 from EMIS.                                       Performance and
                                                                                                          Access database
                                                                                                                                   Accountability
                                                                                                          and analyzed for
                                                                                                                                   Report (PAR).
                                                                                                             variance and
                                                                                                              accuracy.



      * ISBA includes the following applications: retirement, spouse and disability.




      Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)                                                                                                          C-1
Increase the Usage of Electronic Entitlements and Supporting Actions

•   START
•   Claimant completes OASDI application or supporting action on the SSA website.
•   The OASDI application is input using Internet Social Security Benefit Application
    (ISBA). ISBA includes the following applications: retirement, spouse, and disability.
    The supporting actions are input using the following applications:
           o Proof of Income - Internet and 800# voice enabled;
           o Password based and Knowledge based Change of Address (iCOA);
           o Internet Change of Direct Deposit (iCDD); and,
           o Medicare Replacement Card - Internet (iMRC) and 800# voice enabled.
•   For ISBA transactions, the Field Office (FO) receives the Title II Work Management
    Information case listing that identifies Internet cases to be triggered by the
    Modernized Claims System (MCS).
           o The Internet claims data is automatically propagated into MCS when
               triggered by the FO action by a claims representative. (Note: There is a
               field that indicates the claim was received via the Internet.)
           o MCS processes the claim and sends the updated data to the Title II
               Operational Datastore (TII ODS).
           o Every week, the Electronic Management Information System (EMIS)
               Internet site is updated with the Internet workload counts.
•   For supporting actions, a nightly run reads the transaction data input by the public
    and stores it in the EMAP database.
           o Every week, the Internet Management information (MI) reports for iCOA,
               iCDD, iMRC, and Proof of Income are updated and sent to EMIS.
•   Every week the EMIS reports are generated and this data is transcribed into an
    Access database and analyzed for potential variances.
•   SSA Intranet site updated monthly with Increase the Usage of Electronic
    Entitlements and Supporting Actions to the Office of Strategic Management for
    reporting in the Performance and Accountability Report (PAR).




Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)              C-2
             Flowchart of Increase the Percent of Employee Reports (W-2
             forms) Filed Electronically
                             Wage data sent to
 Wage data sent to           SSA via Electronic
 SSA via the Wage              Data Transfer
File Upload and W-2               (EDT).
 Online Application.




 Internet W2 Pre-
processing System
     (IW2PS)




      Annual Wage Reporting (AWR)

        Wage data is converted to a
     common format. Edit, validity, and
      balancing checks are performed
       on wage submissions prior to
                  posting.



                   Does                          Wage data is
                Name/SSN                         posted to the
                match to a            Yes     individual’s Master
                 Numident                        Earnings File           MEF
                  record?                       (MEF) record.


                       No
                                                                                        On a monthly basis,
                                                                                           the numbers for
               Wage data is                  Earnings Management
                                                                                        electronic categories
               posted to the                Information Operational    EMODS
                                                                                          (EDT, Wage File
                 Earnings                    Datastore (EMODS) is     Report 1007         Upload, and W2
               Suspense File                   updated daily with
                                                                                              Online) are
                  (ESF).                        earnings figures.                                                                                                        Results are      Results forwarded
                                                                                        transferred to Excel
                                                                                             spreadsheet.                                                               reviewed and      to the Office of the
                                                                                                                     Spreadsheet formulas calculate
                                                                                                                                                                         calculations       Chief Strategic
                                                                                                                                                                        verified by the   Officer (OCSO) for
                                                                                                                       Increase the percent of
                                                                                                                                                                        Director of the     reporting in the
                                                                                                                     employee reports (W-2 forms)
                                                                                                                                                                       Employer Wage       Performance and
                                                                                                                         filed electronically.
                       ESF                                                                                                                                              Reporting and        Accountability
                                                                                                                                                                       Relations Staff.      Report (PAR).
                                              Office of the Actuary                      The number of W-2s
                                               estimates the total    Progress Report        expected to be
                                                number of W-2s        on Posting Wage    received and posted            (EDT + IW2PS + W2 Online)
                                                 expected to be            Items        for the current year is   --------------------------------------------------
                                              received and posted                         transferred to Excel    Actuarial estimate for current tax year
                                              for the current year.                           spreadsheet.




             Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)                                                                                                     C-3
Increase the Percent of Employee Reports (W-2 forms) Filed Electronically
• START
• Employers send wage data to SSA via the Business Services Online (BSO) Internet
   application (W-2 Online and Wage File Upload) or Electronic Data Transfer (EDT).
• If the wage data is sent via BSO, it will be pre-processed through the Internet W2
   Pre-processing System (IW2PS).
• Wage data is converted to a common format by the Annual Wage Reporting (AWR)
   system. Edit, validity, and balancing checks are performed on wage submissions
   prior to posting.
           o If the Name/SSN matches to a Numident record, wage data is posted to
              the individual's Master Earnings File (MEF) record.
           o If the Name/SSN does not match to a Numident record, wage data is
              posted to the Earnings Suspense File (ESF).
• Earnings Management Information Operational Datastore (EMODS) is updated daily
   with earnings figures from the MEF and ESF. The EMODS Report 1007 is created.
• On a monthly basis, the numbers for electronic categories (EDT, Wage File Upload,
   and W2 Online) are transferred to an Excel spreadsheet.
• The Office of the Actuary estimates the total number of W-2s expected to be
   received and posted for the current year (Appendix D - Estimate Analysis) in the
   Progress Report on Posting Wage Items.
• The number of W-2s expected to be received and posted for the current year is
   transferred to an Excel spreadsheet.
• Excel spreadsheet formulas are used to calculate the results; increase the percent of
   employee reports (W-2 forms) filed electronically. The formula used is: (EDT plus
   IW2PS plus W2 Online) divided by the Actuarial estimate for the current tax year.
• The results are reviewed and the calculations are verified by the Director of the
   Employer Wage Reporting and Relations Staff.
• The results of Increase the Percent of Employee Reports Filed Electronically
   are forwarded to the Office of Chief Strategic Officer for reporting in the PAR.




Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)            C-4
                                                                                   Appendix D

Statistical Methodology - Share of Employee
Reports Filed Electronically Calculation
SSA estimates the total number of W-2s expected to be received and posted for the
current year. To calculate this figure, SSA compares the number of W-2s filed
electronically by September 30th of each year to the expected number of W-2s filed
over the calendar year. The calculation of the number of W-2s filed annually proceeds
in four steps: 1) calculating the number of workers with W-2s posted to the Master
Earnings File (MEF) for a particular calendar year, 2) calculating the number of W-2s
posted to the MEF per worker for a particular calendar year, 3) calculating the number
of other wage items posted to the MEF for a particular year, and 4) calculating the total
number of wage items processed in a particular calendar year. These steps are
described briefly below.

1. Number of Workers with W-2s Posted to MEF for a Calendar Year

The first model estimates the number of workers with W-2s for wages in a particular
calendar year that get posted to the MEF by the end of the posting period for the
calendar year. For instance, only workers whose 2004 wages are posted to the MEF by
the end of January 2006 (the end of the posting period for calendar year 2004) would be
included in this count. The model relies on employment data from two different data
sets, the Current Population Survey (CPS) and the Current Employment Survey (CES),
to estimate the number of workers. The relationship between the number of W-2
workers and the total employed population is estimated using each dataset. The
relationship using the CPS data is estimated using a regression equation with two
independent variables: change in the unemployment rate and a dummy1 for 1995. The
relationship using the CES data is assumed to be constant. 2

Two sets of results are produced, one based on each data set, and the final estimate is
calculated by taking a weighted average of the two. Although the CPS model does a
better job matching the variation in the actual data, the CES results receive a larger
weight (2/3 compared to the 1/3 CPS weight). The CES is generally seen as a more
accurate measure of the labor market over short periods of time, so the Office of the
Actuary places more weight on the CES results.

1
  A dummy variable is a numerical variable used in regression analysis to represent subgroups of the
sample in your study. In research design, a dummy variable is often used to distinguish different
treatment groups.
2
  The relationship is estimated through a regression, but the only independent variables are a constant
term and a dummy variable for 1995. The resulting relationship is constant.


Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)                               D-1
2. Number of W-2s Per Worker Posted to MEF for a Calendar Year

The second model estimates the number of W-2s per worker posted to the MEF for a
calendar year. Similar to the example above, this figure only includes those W-2s for
wages in a particular calendar year posted to the MEF by the end of the posting cycle
(for example, W-2s for wages earned in 2004 that are posted by January 2006). The
average number of W-2s per worker is estimated based on a regression model with the
unemployment rate, illegal immigration, and a series of dummy variables as the
independent variables.

3. Total Number of Wage Items Posted to the MEF

Once the average number of W-2s has been calculated, multiplying by the number of
workers (from the first model) yields the total number of W-2s processed before the end
of the posting period. Corrected W-2s (W-2Cs) and generated W-2s (for tips and
excess wages) are calculated based on fixed relationships to the number of W-2s
(based on historical values).

4. Number of W-2s Processed on a Calendar Year Basis

To calculate the total number of wage items processed on a calendar year basis, the
numbers posted to the MEF for the particular calendar year must be increased by the
number of records sent to the Suspense File and the wage items received for other
years. Both of these are calculated assuming a constant relationship to the total
number of wage items from the prior year posted to the MEF. These two items amount
to approximately 5 percent of wage items posted to the MEF.

We recalculated SSA’s estimate of the share of employee reports filed electronically
with immaterial differences. Also, we reviewed the method for calculating employee
reports filed electronically and found it reasonable.




Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)               D-2
                                                                           Appendix E
Agency Comments




Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)
                                          SOCIAL SECURITY

MEMORANDUM


Date:      February 26, 2007                                                       Refer To:   S1J-3
To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/

Subject:   Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit: Electronic
           Service Delivery" (A-15-06-16111) -- INFORMATION


           We appreciate OIG’s efforts in conducting this review. We are pleased there were no findings
           for the two performance measures audited. Successes such as this are fostered by the cooperative
           relationship the Agency shares with OIG. We believe that lessons learned from previous audits
           have resulted in improvements to performance indicators and establishing challenging, yet
           realistic annual targets.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff on extension 54636.




           Performance Indicator Audit: Electronic Service Delivery (A-15-06-16111)
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
